<html>
<title> - NOMINATION OF HON. BETH F. COBERT</title>
<body><pre>[Senate Hearing 114-587]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-587

                   NOMINATION OF HON. BETH F. COBERT

=======================================================================

                                 HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             SECOND SESSION

                               __________

   NOMINATION OF HONORABLE BETH F. COBERT TO BE DIRECTOR, OFFICE OF 
                          PERSONNEL MANAGEMENT

                               __________

                            FEBRUARY 4, 2016

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


                         U.S. GOVERNMENT PUBLISHING OFFICE
98-883 PDF                     WASHINGTON : 2017                        
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3a5d4a557a594f494e525f564a1459555714">[email&#160;protected]</a>  
        
        
        
        
        
        
        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
EN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
                  Christopher R. Hixon, Chief Counsel
Gabrielle D'Adamo Singer, Deputy Chief Counsel for Governmental Affairs
       William H.W. McKenna, Chief Counsel for Homeland Security
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
             Katherine C. Sybenga, Minority Senior Counsel
      Matthew R. Grote, Minority Senior Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                   Benjamin C. Grazda, Hearing Clerk
                            
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     1
    Senator McCaskill............................................     9
    Senator Tester...............................................    11
    Senator Ayotte...............................................    14
    Senator Heitkamp.............................................    17
    Senator Lankford.............................................    19
    Senator Portman..............................................    23
    Senator Ernst................................................    25
Prepared statement:
    Senator Johnson..............................................    39
    Senator Carper...............................................    41

                               WITNESSES
                       Thursday, February 4, 2016

Hon. Beth F. Cobert, to be Director, U.S. Office of Personnel 
  Management
    Testimony....................................................     2
    Prepared statement...........................................    43
    Biographical and financial information.......................    48
    Letter from the Office of Government Ethics..................    70
    Responses to pre-hearing questions...........................    73
    Responses to post-hearing questions..........................   110
    Letter from Senator Vitter...................................   123
    Letters of support...........................................   126

 
                   NOMINATION OF HON. BETH F. COBERT

                       THURSDAY, FEBRUARY 4, 2016

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
room 342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Lankford, Ayotte, 
Ernst, Sasse, Carper, McCaskill, Tester, Heitkamp, and Booker.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. This hearing will come to order.
    Today, the Committee is considering the nomination of Beth 
Cobert to be Director of the Office of Personnel Management 
(OPM).
    First of all, I want to welcome you, thank you for your 
service you have already given this country and your 
willingness to serve again in an agency that has some real 
problems. I appreciate you meeting with me in my office and we 
certainly discussed those challenges. I appreciate your 
testimony, where you kind of laid out your priorities, 
improving OPM cybersecurity and information technology (IT) 
posture, assisting the transition to stand up the new National 
Background Investigations Bureau, and implementing the 
initiatives that make up the people and culture pillar of the 
President's Management Agenda (PMA). Those are the main things 
you have to address.
    We certainly want to welcome your husband. We thank your 
family, as well, for the sacrifice they make because these are 
some pretty full-time jobs.
    So, again, just very pleased you are here.
    With that, are you ready to make your opening statement?
    Senator Carper. I am ready to rock and roll.
    Chairman Johnson. There you go.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman. Thanks for scheduling 
this hearing today.
    Which one of the folks in the audience is fortunate enough 
to be married to you? Is his middle name Lucky? I know you guys 
do not see each other as much as you used to, and I understand 
you live in Colorado, so this is quite a sacrifice that you and 
your wife are making and we are grateful.
    I have a statement for the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Carper appears in the 
Appendix on page 41.
---------------------------------------------------------------------------
    I just want to say this. We are so lucky that you are 
willing to serve this country, previously as the No. 2 person 
at the Office of Management and Budget (OMB), working with 
Sylvia Mathews Burwell, and now to come in over an agency that 
needs a lot of help and great leadership. And, we are fortunate 
that you are willing to provide that.
    I was looking over your resume, talking with my staff 
yesterday about your credentials, and they said, well, she 
could not get into Ohio State. She had to go to Princeton. I 
went to Ohio State. She had to go to Princeton for her 
undergraduate degree. And, she could not get into the 
University of Delaware, where I went to graduate school. You 
had to go to, where is it, Stanford or someplace like that. 
Ended up running the McKinsey and Company's operation in San 
Francisco on the West Coast and then were good enough to come 
to work for us.
    I remember meeting you. I thought to myself, boy, this 
woman is smart, and you are not just smart, but you have great 
values and you have a great work ethic, as well. And, you are 
really good. You are very responsive. And, you were that way at 
OMB and you are certainly that way at OPM. You have taken on a 
tough job and we are delighted that you are willing to do it. 
My hope is that we can move your nomination promptly.
    But, again, it is great to see you, and to your husband to 
your family, thanks for sharing you.
    Chairman Johnson. And we will enter both of our opening 
statements in the record, without objection.
    It is the tradition of this Committee to swear in 
witnesses, so if you will please stand and raise your right 
hand.
    Do you swear the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Ms. Cobert. I do.
    Chairman Johnson. Please be seated.
    Beth Cobert has been the Acting Director of the Office of 
Personnel Management since July. Prior to joining OPM, Ms. 
Cobert was the Deputy Director for Management at the Office of 
Management and Budget. For almost 30 years before entering 
public service, she worked as a Director and Senior Partner at 
McKinsey and Company. Ms. Cobert.

 TESTIMONY OF THE HONORABLE BETH F. COBERT,\2\ NOMINATED TO BE 
         DIRECTOR, U.S. OFFICE OF PERSONNEL MANAGEMENT

    Ms. Cobert. Thank you, Chairman Johnson, Ranking Member 
Carper, Members of the Committee, for welcoming me today. It is 
an honor to be considered by this Committee as a nominee for 
Director of the U.S. Office of Personnel Management.
---------------------------------------------------------------------------
    \2\ The prepared statement of Hon. Beth Cobert appears in the 
Appendix on page 43.
---------------------------------------------------------------------------
    I am pleased to be joined here today by my husband, Adam 
Cioth, my brother, Stuart Cobert, and my sister-in-law, Marcy 
Engel. I want to thank my children, Peter and Talia Cioth, for 
their support. I also want to thank my mother, Shirley Cobert, 
for her constant encouragement, and both my parents for being 
such great role models of what it means to be engaged and 
committed citizens.
    I want to thank President Obama for nominating me to this 
position. I also want to thank the Members of this Committee 
and their staff for taking the time to meet with me, both 
recently and over the last 2 years in my previous role as 
Deputy Director for Management at OMB.
    My time at OMB and as Acting Director of OPM for the past 
few months has given me the opportunity to work with thousands 
of dedicated public servants who wake up every day with the 
desire to improve the lives of their fellow Americans. It has 
been my honor to serve alongside them.
    Every day, OPM's employees are hard at work, providing 
valuable services to their fellow Federal workers and 
developing policies and strategies to make the government work 
more effectively for the American people. They are processing 
retirement claims from across the Federal Government, 
conducting background investigations on prospective and current 
Federal employees, collaborating with agencies in order to 
attract top candidates for Federal service, and providing 
quality health insurance for Federal employees.
    If confirmed, I pledge to support OPM's employees as they 
build on the progress they have already made by focusing on 
management discipline, ensuring our decisions are based on 
reliable data, and delivering excellent customer service. By 
following these good management practices, I believe we can 
achieve our main goals: Improving OPM's cybersecurity and IT 
posture; assisting with the transition to stand up the new 
National Background Investigations Bureau (NBIB); and 
implementing the initiatives that make up the people and 
culture pillar of the President's Management Agenda so that OPM 
may lead agencies in their efforts to recruit, train, and 
retain a world class workforce.
    Since arriving at OPM, I have made cybersecurity and 
helping those individuals who were impacted by the malicious 
cyber intrusions one of OPM's highest priorities. Over the past 
several months, we have worked to provide identity protection 
services to those impacted. And, we are committed to 
implementing Section 632 of the Omnibus, which also provides 
services to impacted individuals.
    If confirmed, I will work to see that OPM continually 
strengthens its cyber defenses and IT systems in the face of 
today's evolving threats by focusing on technology, people, and 
process.
    As you are aware, recently, the Administration announced a 
series of changes to modernize and strengthen the way we 
conduct background investigations for Federal employees and 
contractors and protect sensitive data. These changes include 
the establishment of the NBIB, which will absorb OPM's existing 
Federal investigative services and be headquartered in 
Washington, DC. This new governmentwide services provider for 
background investigations will be housed within OPM. Unlike the 
previous structure, the Department of Defense (DOD) will assume 
responsibility for the design, development, security, and 
operation of the background investigations IT systems for the 
NBIB.
    If confirmed, I will work to facilitate the transition 
while minimizing the disruption of current operations and 
continuing the focus on providing effective, efficient, and 
secure background investigations for the Federal Government.
    During my almost 30 years in the private sector, I worked 
with corporate, nonprofit, and government entities. One 
consistent lesson I learned was that the most effective way of 
getting things done is to approach issues with a solution-based 
mindset. This is why I believe the best way to deliver results 
for the American people is to work with partners wherever we 
may find them, from the Office of the Inspector General (OIG) 
to Congress, from labor unions to private stakeholders. Every 
organization can benefit from leaders who provide a sense of 
purpose, ensure people deliver against commitments, and are 
willing to roll up their shirtsleeves and dig in with their 
workforce to accomplish goals on behalf of their customers. If 
confirmed, this is how I will approach my work at OPM.
    I look forward to working with this Committee to find ways 
to continue the improvements that I believe are underway 
already at OPM and to provide the support needed for our 
customers, the current, future, and former Federal employees, 
their agencies and departments, and, ultimately, the American 
people.
    I want to thank the Committee again for considering my 
nomination and I look forward to answering any questions you 
may have. Thank you very much.
    Chairman Johnson. Thank you, Ms. Cobert.
    Let me start where you started, cybersecurity. Obviously, 
the discovery of the numerous breaches have been the subject of 
a number of hearings in this Committee. We found out not too 
long ago that the Inspector General (IG), Patrick McFarland, is 
going to retire. I hate to see that. But, I know that one of 
the things that OPM has undertaken is a major IT modernization 
project designed to replace existing systems, which I think is 
absolutely necessary, but Mr. McFarland was very critical of 
the effort. It is going to cost about $100 million. His quote, 
``It is entirely inadequate and introduces a very high risk of 
project failure.''
    Can you just kind of comment on, I guess, his evaluation of 
that modernization effort and what the plans are to address 
that situation.
    Ms. Cobert. Sure. Thank you, Senator. Addressing 
cybersecurity and modernizing OPM's IT systems so they are 
appropriate for the evolving threat environment we face today 
is a critical priority. It is work that is important and needs 
to be done carefully, and we are continuing to take all the 
input we can on how to do that well.
    We have had an ongoing dialogue since I arrived at OPM. I, 
in fact, met with the Inspector General my first day there to 
talk about his concerns, to understand them, and to figure out 
how to address them.
    We have also been in the process of looking again at the 
modernization plan in light of some of the changes. We have 
looked at it again post the breach because we needed to 
understand what we learned from that context and how to 
incorporate it. We are going to be looking at it again in the 
context of the recent decision to stand up the NBIB and have 
the Department of Defense play the role they are playing in the 
IT support for that organization.
    So, we are continuing to work that plan. We are continuing 
to have an ongoing dialogue with the Inspector General about 
it. And we are committed and I am committed, if confirmed, to 
continue to make sure that we have a thoughtful plan, we have a 
plan that will deliver the results, and we have a plan that 
will deliver security and will be a smart use of the taxpayers' 
dollars.
    Chairman Johnson. I will go on the record right now, and I 
hope after the retirement of McFarland, this Administration 
nominates somebody immediately to replace him, because the IG 
is an extremely important position.
    When you see these breaches and this massive amount of 
data, whether it is in the private sector or within OPM, I am 
always kind of scratching my head going, what are people going 
to be using with this information? Why do they believe that 
this breach was not really about trying to utilize the personal 
information for criminal activity, but as a breach from a 
nation state really having to do with national security.
    One of the things we would like to do, certainly, I would 
like to be briefed by the National Counterintelligence and 
Security Center (NCSC). I would just ask you to help facilitate 
that type of briefing. Is that something you are willing to 
basically go on record with?
    Ms. Cobert. I would be very happy to facilitate the 
briefing. We have worked closely with that group throughout the 
process of responding to the breach and figuring out how to 
respond to it most effectively. They are a key partner of ours 
and I would be happy to work with them to get you and this 
Committee any input from them that you need.
    Chairman Johnson. A recent ruling by the Federal Labor 
Relations Authority (FLRA) basically took away the authority of 
agency heads to really set policies as it relates to personal 
e-mail use and Facebook use on agency computers. I think you 
disagree with that. Can you kind of speak to that issue?
    Ms. Cobert. As the world of cybersecurity is changing, as 
we recognize the nature of these threats, we all need to change 
the way we interact, the way we use systems at work and at 
home. What we have done at OPM, and I think what is important 
for every agency to do, is to recognize what needs to change in 
the way they operate, what needs to change in the way their 
employees operate to make sure systems are secure.
    At OPM, for example, I cannot access my personal Gmail 
account from my OPM computer. That is the way a lot of threats 
come in. There have been new guidelines about how to use 
personal devices to access the network. I believe it is 
important to put those processes into place. We need to change 
the way we act in the face of this threat and we need to take 
actions. Simple actions like that can make an enormous 
difference.
    Chairman Johnson. But, again, I think I agree with you. 
That should really be left up to the Administration, not 
necessarily in negotiation with the union.
    Ms. Cobert. We have had lots of discussions with this with 
many folks, including the unions, at the National Labor-
Management Council coming out of the breaches. They, too, share 
the concern about protecting the information of their members, 
protecting the information of the government, and I know we can 
work with them to make the kind of progress we need to make 
here.
    Chairman Johnson. When we met, one of the issues I raised, 
because I was visited by representatives of the United Way, 
about OPM's consolidation of the Combined Federal Campaign 
(CFC). I know you have a lot of experience with the United Way 
from the private sector. Can you just speak to, first of all, 
why we are combining that, and again, basically make your 
commitment to meet with representatives of the United Way and 
address their concerns.
    Ms. Cobert. Senator, thank you for raising this earlier and 
now. The work in the Combined Federal Campaign is designed to 
centralize the Administration of that effort, but to ensure, as 
it always has been, that local donations that individuals 
choose from across the country to send to local charities go to 
those local charities. It also preserves a critical role for 
our philanthropic partners, including the United Way, in 
working on those local campaigns. They are keyed to get people 
excited about donating. They are keyed about getting people to 
understand how much those dollars mean to their communities.
    We are working with the United Way already. We will 
continue that. They are part of the stakeholder transition 
group as we move to this new model. So, I can clearly commit to 
you that we will continue to be engaged with them. They are 
critical partners to us in this effort, in this effort to 
modernize how we do this, and also to ensure a robust and 
ongoing successful Combined Federal Campaign.
    Chairman Johnson. I think two very legitimate concerns is 
if we consolidate this at the national level, all of a sudden, 
you are going to start potentially making Federal decisions in 
terms of local charities, in terms of who can be included in 
the donations and that type of thing. So, that is a concern.
    I think the other concern, too, is the up-front fee as 
opposed to a variable fee, so that potentially smaller 
charities just will not be able to necessarily participate in 
the program. Can you quickly speak to those two issues.
    Ms. Cobert. Sure. Let me start with the fee question. We 
are working with a transition group, this stakeholder group 
that includes philanthropic organizations, on how to cover the 
costs of the campaign and what kind of fee to do that.
    One of the specific alternatives that is under 
consideration is a tiered set of fees, different fees for 
larger organizations and for smaller organizations. So, I think 
that is definitely one of the alternatives on the table in 
terms of how we can make sure the fees are appropriate and 
consistent with the differing resources.
    Chairman Johnson. In addition to different tiers, because 
you have some variable and some fixed. I mean, would that be 
something you would look at----
    Ms. Cobert. All of those things are in the cards. This 
process is continuing. There is a transition process and, as I 
said, an ongoing engagement. And as we work that through, I am 
happy to come back and keep you apprised of our progress.
    Chairman Johnson. And, then, just a quick comment on the 
Federal control over which charities would be qualifying or not 
qualifying.
    Ms. Cobert. The process today for participation in the 
Combined Federal Campaign involves both local and Federal 
oversight. We want to make sure that the charities that we are 
making available to Federal employees are ones that are well 
run. That exists today.
    We also recognize that it is critical to have people 
through the Combined Federal Campaign be able to communicate 
with and support the charities in their local community. That 
has been a hallmark of our success. It is going to be a core 
element of how we proceed going forward.
    Chairman Johnson. Thank you. Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    Again, welcome to you and your husband and your brother and 
sister-in-law. I have been watching your brother, and when you 
speak, I can just barely see his lips move. [Laughter.]
    Bigger brother? Younger brother? Which----
    Ms. Cobert. Older brother.
    Senator Carper. The big brother, OK. I do not know what 
your mom and dad fed this woman growing up, but it was the 
right stuff.
    This Committee has worked, I think everybody on this dais, 
including Senator Tester over here especially, worked to enable 
the Department of Homeland Security (DHS) to do a better job on 
the cyber front. We have passed legislation that gives them the 
kind of opportunities to hire and retain people, cyber warriors 
that the National Security Agency (NSA) has. We have done work 
that straightens out the Federal Information Security 
Modernization Act (FISMA), as you may recall, with respect to 
the responsibilities and obligations of OPM versus Homeland 
Security. We codified and made real their ops center.
    This year, thanks to the work of all of us, including the 
Chairman and others on this Committee, we worked very hard with 
the Intelligence Committee (IC) and, I think, passed a really 
good information sharing bill, authorized something called 
EINSTEIN 3, direct its implementation, a whole lot that we have 
done to enable the Department of Homeland Security to be a much 
better agency on this front.
    Can you see that any of that has helped? Have they been of 
any help to you and to your agency? Are all of our efforts and 
theirs bearing any fruit? Thank you.
    Ms. Cobert. Thank you, Senator. The Department of Homeland 
Security, the entire organization, and particularly the team 
from U.S. Computer Emergency Readiness Team (US-CERT), has been 
invaluable resources to OPM in the face----
    Senator Carper. Would you say that again?
    Ms. Cobert. The Department of Homeland Security and 
especially the folks at US-CERT have been invaluable resources 
to the Office of Personnel Management as we have responded to 
the cyber breach.
    One of the things that most impressed me as I arrived at 
OPM was the incredible intergovernmental effort that was 
underway to help OPM respond to this situation. They were there 
to help take immediate measures. They have been there to 
collaborate with us as we think about the ongoing measures we 
need to make to continue to improve the security of our 
systems. How do we prioritize those actions? How do we work 
together with them? How do we take advantage of the tools that 
EINSTEIN offers?
    My goal is to be a great customer of EINSTEIN. We have put 
in all the tools that they have available and we want to 
continue to take advantage of the tools. One of the advantages 
of having that at Homeland Security is that you have all those 
resources that a smaller agency at OPM can then work with and 
rely on.
    We are also working with them as part of the President's 
Cybersecurity Implementation Plan on bringing more cyber talent 
into the Federal Government. How can we take advantage and make 
sure that agencies are taking advantage of the flexibilities 
that exist, the flexibilities that Congress had granted in 
particular for cyber professionals? How do we make sure people 
know about those programs and they are using them well?
    We are working with them closely to think about what are 
the additional steps we can take to bring in more talent, to 
centralize--to make sure that that talent can be leveraged 
across the Federal Government.
    So, there are a whole series of ways we are working with 
them. They are invaluable partners to OPM.
    Senator Carper. That is music to our ears. Thank you. Thank 
you so much for saying that.
    A week or two ago, we had a hearing and the, as my 
colleagues will recall, the lady who was the head of the Office 
of Special Counsel (OSC) was here. She was up for a 5-year 
reconfirmation, a very able person. And we had a guy who had 
been nominated as the IG for the VA. And, I asked her at the 
end of the hearing, I asked the woman from Office of Special 
Counsel, who gets great reviews as a leader, I said, what kind 
of advice would you give this fellow who has been nominated to 
be the IG? I think he is going to be very good.
    And she said to him, here is the best advice I could ever 
give you. Surround yourself with the best people you can find. 
And, that is probably the best advice I have ever gotten, as 
well.
    Can we talk a little bit about critical skills gaps?
    Ms. Cobert. Yes.
    Senator Carper. And, in your view, what are the primary 
barriers to recruiting and maybe to retaining qualified 
individuals for some of the occupations that are facing skill 
gaps, and what steps are you taking to address those, and what 
more can or should we do to enable you to do that?
    Ms. Cobert. Bringing in great talent is something I spent 
much of my career focused on, whether it was leading talent and 
recruitment at McKinsey, whether it was working with a number 
of my clients on talent. It was part of my work when I was at 
OMB and it is one of the things I am excited to spend time on 
at OPM.
    I think there are a couple of elements that are key to our 
success in closing these critical skill gaps. The first is 
recognizing that the professional development opportunities, 
the opportunities for impact in public service are incredible. 
The scale, the scope, the complexity of the issues that 
individuals deal with every day are very challenging and also 
have the potential to be very rewarding.
    So, one of the things we have to do is to communicate more 
clearly what you can do, the impact you can have on your 
country when you join Federal service. So, it is being clear on 
the opportunity.
    A second piece is making sure--and I have seen this 
throughout my career--that when we are looking at bringing in 
talent and hiring people, it is not the job of the human 
resources (HR) department, no matter how talented they are, to 
lead that effort. It is a joint partnership between the 
individuals leading the mission, the hiring managers, and the 
support of HR. The person who best understands the real skills 
we need, whether in a scientist or an IT professional or an 
economist, are the people doing the work, and they have to work 
in partnership with the human resources folks to understand, 
how do we bring those people in? How do we get them through a 
process? How do we do that in a way that is fair and 
transparent and effective?
    And, so, what we are working on with agencies is a new 
program around hiring excellence that brings those groups 
together, that gets them out there together, understanding the 
flexibilities exist, delivering against them in a way that 
works together for them and the folks they are trying to 
recruit.
    I think those are the core things, and we are doing that 
with hiring managers. We are doing it with the Chief Human 
Capital Officers Council (CHCO). It has been a big focus. It is 
a key part of the President's Management Agenda and one that we 
are actively working.
    Senator Carper. Good. I do not have time for another 
question. Thank you for that response.
    Ms. Cobert. You are welcome.
    Senator Carper. But, if we do have a second round, I want 
to come back and ask you about how we are using the Federal 
Employees Health Benefits Program (FEHBP) to find ways to get 
better health care outcomes for less money, or better health 
care outcomes for the same amount of money. OK. That will be my 
followup. Thanks so much.
    Ms. Cobert. Thank you.
    Chairman Johnson. Senator McCaskill.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you.
    Quickly, a couple of things. I do not need to tell you 
about the hundreds of millions of dollars that OPM has wasted 
on IT systems. We have had $100 million on management of 
Federal retirement, another $25 million in 1987. Ten years 
later, you did not pull the plug on the project. In 1997, it 
started over. Then the system went live after 2008, after $105 
more million put into it, and it was a spectacular failure.
    I just wanted to get your commitment on the record to 
provide us regular briefings on the progress with Imperatis. I 
know there were some questions about the contracting, which I 
shared with the IG, but I understand that there was a sense of 
urgency and, corners may have been needed to be cut. But, I 
sure want to know if it is going south before we--I want us to 
pull the plug before we get to hundreds of millions.
    Ms. Cobert. Thank you, Senator. We are committed to make 
sure that we are spending the IT dollars in a responsible way. 
We are working on spending them in a more modular way than has 
been done in the past, making sure that each element delivers 
results as it goes, that we are going to have tangible evidence 
that work is being effected as we move through those projects.
    Senator McCaskill. That is great. Well, if you would let me 
know when you complete mods, that would be terrific.
    I also would like you to followup with my office and let us 
know why you are not rebidding the 12-year contract on the 
Flexible Spending Account (FSA) program. It has not been rebid. 
It is supposed to be rebid every 12 years, and I would like you 
to followup on that.
    I would like to spend the majority of my time, though, 
talking about security clearances. I have two ends of this 
stick I want to kind of beat you with.
    Ms. Cobert. Thank you. [Laughter.]
    Senator McCaskill. Not literally. But, one is there is a 
young man that grew up in St. Louis after coming here with his 
mother to marry a professor at Washington University. Grew up 
in St. Louis, got a great education, and then he found his 
dream job, the job that he had worked very hard to get. And he 
was offered that job at the State Department in January of last 
year. The State Department is getting ready to pull his job 
offer because he cannot get a security clearance, not because 
there is anything wrong with his background, but because he 
obviously is not being given a priority.
    Now, I get you have to prioritize, and there is part of me 
that is saying in my brain, Claire, you would be yelling at her 
for not prioritizing. But this young man wants to give to his 
country. This young man has studied to do this job, and it 
seems so terribly unfair that he is not going to be able to 
realize his dream because we cannot get our act together on 
security clearances. What should I tell this young man?
    Ms. Cobert. Senator, bringing people like that into public 
service is exactly what we need to be doing, and I share your 
frustration in this case. The process is one that is involved, 
and it also is one that operates across the Federal Government 
in different ways.
    So, the State Department process, while working under 
standards set by the Security Executive Agent, who is the 
Director of National Intelligence (DNI), and the Suitability 
Executive Agent at OPM, is actually carried out by the State 
Department. There is an investigation process and adjudication 
process. And, he would have to work with the State Department. 
I am happy to work with them to try and get you an answer to 
this, but their process is carried out through the State 
Department.
    Senator McCaskill. Well, he has had his in-person interview 
and, it is not like there has not been anything that happened. 
And, by the way, he is working in climate change and 
deforestation. I mean, we are not talking about, underground 
with ISIS or something. We are talking about someone who is 
trying to do the important work around the globe with the State 
Department that keeps the world safer.
    And, then, on the other end of that same stick, I want to 
talk about and you to address--I think you all have interpreted 
what the IG has said about going back to pick up dumped work 
that USIS dumped that they did not do on background checks. I 
know that your agency has interpreted that as meaning you have 
to go back and do all hundred-and-some-thousand investigations 
all over. That is not what the IG is saying. The IG is not 
saying to do them all over. The IG is saying to just go back on 
those when the subjects of those background investigations are 
submitted for reinvestigation.
    So, I would like a commitment from you--and I am going to 
be writing you a letter about this--that you go back. It is 
almost as if you saw the recommendations and said, no, no, no, 
we cannot do that, that is way too much, and did not really pay 
attention that they are not asking you to do every one over 
again. I think that would be an unreasonable request, 
especially in light of the young man who is trying to get his 
security clearance done for the State Department. But, would 
you make a commitment to relook at the IG recommendation and 
more specifically address their concerns?
    Ms. Cobert. I will make that commitment. We have worked 
with them. We have worked to clear the cases that were tied up 
in the USIS issue. We have made real progress on that. But, I 
am happy to come back and work with you and your office and 
make sure you have the answers you need on that situation.
    Senator McCaskill. OK. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Mr. Chairman, and I want to 
thank you, Beth, for being willing to serve. You have been in 
this position since July and nominated in November and we 
appreciate your willingness to serve the country.
    I want to start out not talking about you, but talking 
about something the Chairman said, because I agree with him. If 
the IG for OPM is due to retire, I would hope that the 
President does appoint a new one and that he is confirmed 
rapidly. But, I must say, we had a VA IG in here 2 weeks ago, 
Mike Missal, and we passed him out. I applaud your efforts on 
that, but unfortunately, some of the very same people who were 
wanting an IG for the VA--which I think is critically important 
and I know the Chairman does, too--are now holding that IG. I 
just bring that up, because if you can help us with that, we 
would sure appreciate it.
    I want to talk about the land management work, Forest 
Flexibility Act, very briefly. As I think you are aware, 
preliminary guidance for the agency has been issued regarding 
this Act, and I worked on this legislation for a couple 
Congresses. I think it is Congress's intent to provide 
temporary seasonal employees who will fulfill certain 
obligations to be considered for permanent jobs across 
government--``across'' is the key word here. Initial guidance 
does not seem to be following the congressional intent, and I 
think we need to get that fixed if we are really going to 
fulfill what the legislation meant to give seasonal employees a 
fair shake.
    Could you comment on that and, hopefully, commit to the 
fact of working to make sure this meets what Congress meant 
when they passed it?
    Ms. Cobert. Thank you, Senator. I can commit to working 
this through what Congress meant. What we wanted to do in 
responding to this piece of legislation was to try to get some 
guidance out there quickly so that people could take advantage 
of the provisions, but recognizing that we wanted to go through 
the full regulatory process where we get greater input and make 
sure the permanent regulations that are put in place are 
appropriate.
    We are now in the midst of starting that process, and I can 
commit to you that we will work with you and others to make 
sure we have that input and move that forward as quickly as 
possible.
    Senator Tester. And I appreciate that response. I just want 
to make sure that the preliminary rule does not impact the rule 
down the road, because, quite frankly, it needs to be across 
government. I think there are some benefits to government 
efficiency if we do it that way.
    Ms. Cobert. Yes. So, the preliminary guidance covers that. 
As we go into the rulemaking process, we can address those 
issues.
    Senator Tester. Thank you. Administrative leave, I want to 
thank you for your work on the Administrative Leave Act with 
us, and I am confident that this legislation is a step in the 
right direction and will, in fact, make government more 
efficient and save some taxpayer dollars along the way.
    Could you give me just your opinion about how 
administrative leave is currently being used across the Federal 
Government.
    Ms. Cobert. Administrative leave is really designed to be a 
tool of last resort, not first resort----
    Senator Tester. Yes.
    Ms. Cobert [continuing]. When there are a situation where 
an individual should not be in the workplace. There are lots of 
ways you can deal with that. You could think about telework 
arrangements. You could think about reassignment of duties. 
And, so, it is not the first resort for how to address a 
situation.
    Also at the moment, and one of the things we are now 
working on now at OPM, is being clearer on what we mean by 
administrative leave. Administrative leave as currently defined 
can cover a range of things. It could cover someone returning 
from Reserve status and having the days that they need to get 
back in shape and get their lives organized. It can cover 
sometimes closures on snow days or the like.
    So, one of the things I think we need to do in addition to 
making sure that agencies understand how and when to use it 
well is to make sure that we have better ways of tracking what 
it is being used for and more clarification on sort of what are 
the different types of administrative leave, and I think that 
can also help agencies manage it better.
    Senator Tester. OK, good. Thank you.
    I am pleased to see the Administration acknowledges that 
large-scale change was needed in the security clearance process 
to improve suitability. I have called for a hearing about the 
security clearance process, and I think we need to know a lot 
more about what is being done as this new entity called the 
National Background Investigations Bureau is being created.
    Can you give me some insight as to what this Bureau is 
going to be doing, very briefly, if you could, and what you are 
looking at in order to stand this Bureau up.
    Ms. Cobert. The process that the interagency group went 
through in thinking about security clearance was a very 
thorough one and kept coming back to the questions of how do we 
best secure and protect the data that we collect in this 
process and how do we continue to have a structure that enables 
us to modernize this critically important function.
    Senator Tester. Right.
    Ms. Cobert. So, there are a couple things that will be 
different, as you know. We will be having the IT systems, the 
design, the security of the operations, provided by the 
Department of Defense so we can tap into a much greater pool of 
resources and expertise for these systems. And important, 
because the Department of Defense is also our largest customer, 
there is a real synergy there.
    A second piece is making sure that this agency, this 
bureau, focuses on its enterprise role, it has more dedicated 
support than it has today--to carry out its functions. It will 
have a leader who will be a full member of the Performance 
Accountability Council (PAC), which will enable us to have that 
group continue the close working that it has done, both at the 
policy level but as we move down from policy to operations.
    It is going to have more interagency collaboration. This is 
a whole of government effort and we are going to find ways to 
continue that.
    Senator Tester. So, let me ask you--and it goes back to 
Claire's question with the Department of State and the young 
fellow who has the dream job, who is going to be working on 
climate change and deforestation, who needs a security 
clearance dictated by the Department of State. Will this NBIB 
have any ability or authority to influence agencies if, in 
fact, they do not need a security clearance, because there are 
over four million of them right now on the books?
    Ms. Cobert. The policies for granting security clearances 
are operated through the Director of National Intelligence, in 
his role as Security Executive Agent. We have, since the work 
coming out of the tragedy at the Navy Yard, made progress in 
reducing the number of clearances. They have come down about 17 
percent, and it is an ongoing process based on directives from 
the DNI to continue to examine those.
    I know that when I was at OMB, we literally went through 
every single individual with a security clearance and assessed 
whether individuals still needed those and, in fact, reduced 
that number.
    So, that oversight comes from the policy level and that is 
what this group will be doing in terms of driving the 
background investigations that it conducts and working across 
the other agencies, like the State Department, who do their 
investigations on their own.
    Senator Tester. So, not to paraphrase, but they will have 
some influence--as far as if the State Department says we need 
a security clearance--they will be able to give some feedback 
on that?
    Ms. Cobert. That role and security clearances are 
determined by the Security Executive Agent----
    Senator Tester. I have got you.
    Ms. Cobert [continuing]. Who is the DNI. Our goal in NBIB 
is to do the operations to support those policies.
    Senator Tester. OK.
    Ms. Cobert. But, the DNI sets those specific policies.
    Senator Tester. Thank you. I appreciate your willingness to 
serve and I hope you are confirmed quickly. Thank you.
    Ms. Cobert. Thank you, Senator.
    Chairman Johnson. Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you, Chairman.
    Thank you, Ms. Cobert. I wanted to ask you about, in 
followup to Senator McCaskill's question and more specifically 
with the three core recommendations coming out of the Inspector 
General report. So, there are basically three core deficiencies 
that they identified with OPM related to IT security. And, as I 
understand it, first is related to security governance. Second 
is OPM IT systems were operating without valid authorization. 
And third would be that the IG also had concerns with OPM's 
technical security controls.
    So, I know that Senator McCaskill asked you to revisit 
those, but I would actually like to know where you think the 
agency is on implementing those recommendations and addressing 
those deficiencies, more importantly.
    Ms. Cobert. Sure. Thank you, Senator. Since my arrival at 
OPM, we have been going through a very thorough and systematic 
process of reviewing the recommendations from the IC and, 
frankly, reviewing the recommendations of the other individuals 
who have come and worked on our systems over the past year, US-
CERT from the Department of Homeland Security, for example. 
And, so, we have a process of working our way through each of 
those specific recommendations.
    We have put in place changes around IT security governance, 
including the creation of a new Chief Information Security 
Officer position, and have a process for continuing to manage 
and build those capabilities.
    We are working through the specifics of the authorizations 
and have a team in place to work through those in a prioritized 
way, starting with the high value assets. And, so, we are going 
through each one systematically. We have been able to close 
some of the FISMA recommendations from the past few years and 
we are committed to just keeping at it until we get through 
every one of them.
    Senator Ayotte. And, one of the issues that I know that you 
certainly worked on is the issue of accountability, and in 
particular the OPM's Inspector General's report also detailed 
successful cases of fraud investigations and recoveries. So, 
doing business with the government, the review done by 
contractors, certainly, we want to hold anyone who does 
business with the government to a high standard, and that means 
holding people accountable for misconduct.
    But, it seems to me that this is something we need across 
government, and one of the issues that I have been very 
concerned about is that when we are not able to hold employees 
accountable for misconduct, it demoralizes the good employees 
and then, obviously, it also gives people less confidence in 
our government.
    And, the foremost example I can think of that is the 
Veterans Administration. This Committee actually reported out a 
bill, 
S. 742, which ensures that Federal employees that defraud the 
government, commit felonies or other serious misconduct, are 
not paid bonuses, because you may recall that many at the 
Veterans Administration, that some of whom were later found to 
be involved in the wait list manipulation and other misconduct, 
actually had received bonuses. But, they were able to keep 
those bonuses. Even in some instances when they lost their 
jobs, they kept the bonuses that were related to their 
manipulating of the wait lists, which is the irony of it.
    So, do you not think it is important to your mission to 
ensure accountability that you have the legal authority to make 
sure that wrongdoers are not getting financial rewards so that 
we do not demoralize the very good employees and are able to 
recognize their efforts?
    Ms. Cobert. Senator, the issue of a manager and supervisor 
taking responsibility for the true management of their 
employees is something I concur with strongly. It is not just 
their responsibility, it is their obligation to manage the 
people who work for them. It is what helps them deliver against 
the mission. It is what helps build an organization that is a 
high-performing organization. That is a manager's obligation to 
take on those responsibilities.
    In my time at OPM and previously at OMB, we have been 
working to reinforce that message. As an example, we have put 
forth new guidelines for the Senior Executive Service (SES) 
performance evaluations to ensure that those evaluations 
explicit take into account things like employee engagement. How 
is a manager doing in engaging their employees, in making them 
committed, engaged, contributing members of the workforce? We 
have also changed the guidance around those evaluations to 
ensure that they can take into account misconduct issues in 
doing those evaluations.
    So, I think we need to continue that, and we need to make 
sure that the managers understand that. Those decisions rest 
with the agencies and we have to make sure that agency 
leadership throughout the organizations understands that it is 
not just the responsibility, but it is their obligation to do 
this kind of performance management.
    Senator Ayotte. Well, I appreciate that, and I assume that 
you want to make sure that you have the tools, if somebody does 
commit misconduct, to hold them accountable appropriately.
    Ms. Cobert. The tools are important. There are tools there 
today, and we need to make sure that people are using the tools 
that exist.
    Senator Ayotte. Right, except the tools are not sufficient, 
with all respect, because if the tools were sufficient, there 
is no way that people who receive bonuses who are later fired 
and found to have committed misconduct could have kept that 
money. So, that is what our bill is trying to do so that does 
not happen going forward. So, I am hopeful that the Senate will 
take up this bill, because it makes so much common sense. It is 
being blocked right now, and I do not know how anyone could 
defend this practice, but we will find out. We need to make 
sure that you have that tool, as well.
    I wanted to ask you briefly about tax fraud. During the 
most recent tax filing season, we learned quite shockingly how 
easy it is for criminals to file false tax returns using only 
Social Security number and a name to file and claim a false 
return. In 2013, there were apparently 2.9 million cases of tax 
fraud which paid out $5.8 billion in fraudulent tax funds. And, 
I have to tell you, one of the things I get so much from my 
constituents is when they have been the victim of tax fraud, 
how difficult it is to deal with the Internal Revenue Service 
(IRS) and also that they are victimized in trying to correct 
their good record. And, we know that without a breach that 
affects about 22 million Federal workers.
    Understanding this risk, has OPM seen, and more 
importantly, are you looking to protect against scammers trying 
to fraudulently file a tax return based on data procured in the 
breach that we experienced, and is OPM coordinating with the 
IRS on this, because I think that is one of the worries. The 
massive breach that was incurred and people's personal 
information that was taken, we have already seen this tax 
fraud--what we do not want to see is Federal employees 
exploited or those who have had Federal jobs exploited. So, 
what steps are you taking to work with the IRS on this?
    Ms. Cobert. Sure. We have taken a number of steps to make 
sure that the individuals who are impacted by the breach are 
aware of the services that are available and take advantage of 
them. The enrollment, for example--one of the services that is 
very valuable that is provided is what is called identity 
restoration services. If something happens to you, what the 
company does is help you figure out all the different things 
you need to do. You have to contact the IRS and Social 
Security. Most of us do not know precisely what we should do if 
something happens. They provide those services and help people 
through those situations.
    The enrollment rate in those services is about 12 percent. 
It is about five or six times higher than the average you would 
get in a private sector incident, and we continue to 
communicate through many channels to Federal employees to urge 
them to sign up for the services that they are eligible for. 
And, they can take advantage of those services any time. They 
do not have to have pre-signed up.
    Senator Ayotte. So, I know my time is up, but what I would 
also ask of you is we want to try to have you interface up 
front with the IRS so that we do not need to worry about the 
services, so we hope to prevent victimization, because even 
with the services, let us face it, it is such a hassle and it 
really could be such an infringement on people's lives.
    Ms. Cobert. Senator, we have communicated and worked with 
the IRS during the process. We also continue to communicate 
with law enforcement to understand what is going on. We will 
continue that process.
    Senator Ayotte. Thank you.
    Chairman Johnson. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman, and thank you, 
Acting Director Cobert.
    I just wondered, do you ever thank Stephen Colbert for the 
fact that we all know how to pronounce your name?
    Ms. Cobert. Although Stephen Colbert is--it is Cobert, not 
Colbert, though he is from my hometown, so----
    Senator Heitkamp. And you are not related.
    Ms. Cobert. We are not related. He has got an ``L'' that we 
are missing, so---- [Laughter.]
    Senator Heitkamp. So, as you know, I am Ranking on the 
Committee that has jurisdiction over the Federal workforce and 
we continue to work through some of the challenges, whether it 
is the webpage in which you make application, whether it is 
supervisor training so that we get the ability of those people 
who have moved up, who may be great in terms of what they do, 
whether it is IT, whether it is being nurses, but they become 
great supervisors, and I know you have been incredibly 
responsive on a lot of those issues since you have been in your 
role as Acting Director.
    But, I remain very concerned about the future of the 
Federal workforce, as you know. And, I want to just pick your 
brain a little bit as we kind of move into this next phase and 
look at what we should be doing to make, not adapt the 
workforce to the Federal system, but adapt the Federal system 
to the emerging workforce.
    And, so, in the Recruitment, Engagement, Diversity, and 
Inclusion (REDI) roadmap that you provided, you speak about 
improving the Pathways Program, which consists of internship 
programs, recent graduates programs, and the Presidential 
Management Fellows (PMF) program. What improvements are you 
planning to make to this program and how will those 
improvements help attract more millennials to the Federal 
workforce?
    Ms. Cobert. Senator, bringing in great talent to the 
Federal Government is a huge priority and opportunity for us. I 
think when we look across the country, there are many people 
who are excited about the idea of serving their fellow 
Americans and it is our job to make that easier, to connect 
that passion with the reality of the experience of working in 
the Federal Government. So, we are working through those 
programs.
    There are a number of flexibilities in programs we built 
into Pathways that agencies, frankly, need to take more 
advantage of. It is important that we make those jobs 
available, but agencies can and do--the best ones do--be much 
more explicit in reaching out to people and communicating with 
them about those opportunities.
    We are expanding the PMF program, for example, to extend 
the range of offers around a science, technical, engineering 
and math (STEM) PMF program, a way of bringing people, the 
talent we need. We need a lot of science, technical, 
engineering, and math talent in government. So, we focus those 
programs.
    We are about to launch a Hiring Excellence campaign that is 
going to be taking experts from OPM around the country to the 
places where we are hiring individuals, and we are going to 
work not just with HR, but with the hiring managers to make 
sure that they know how to communicate, they know the 
flexibilities they have, and that we get those hiring managers 
engaged in the process. When you have a great scientist engaged 
in helping to recruit scientists, that is when you can make it 
work. And those are the kinds of programs we are doing, as well 
as ongoing improvements to things like USAJOBS.
    Senator Heitkamp. We know that the average tenure of a 
millennial in the Federal workforce is less than 4 years. And 
we know that less than 16 percent of the Federal workforce is, 
in fact, millennials. There is a whole huge pile of talent out 
there, and if we are going to recruit that talent, we need to 
understand why people leave. Explain to me the process that you 
would recommend for an exit interview so that we would, in 
fact, better understand why they are leaving for more money? 
Are they leaving for more flexibility? Are they leaving because 
they are sick of the bureaucracy, because they have a problem 
with their supervisor, they cannot get done what they need to 
get done? Why are people leaving after only 4 years in the 
Federal system?
    Ms. Cobert. The questions you raised to be addressed in an 
exit interview are precisely the right ones. What is attracting 
people in? What made them decide to come? And how did we 
deliver on that expectation that we had? That is the process we 
can learn.
    We do, for example--can get some of this information from 
the Federal Employee Viewpoint Survey (FEVS), and we are 
continuing to use it as a tool to mine. It is a very valuable 
resource. So, when we look at that, we actually see that the 
millennials in the population are, in fact, more engaged in 
their jobs. So, how do we get more of them there? How much of 
that is unique to the Federal Government and how much of that 
is just how people start their careers?
    I know I was an anomaly. I spent 29 years at one employer. 
Most people left after 2\1/2\ years. That is the standard time.
    So, what is unique to the Federal Government? What is 
different? How do we keep them connected over time to public 
service? Those are all the kinds of questions we need to focus 
on.
    Senator Heitkamp. And, without getting into USAJOBS, when 
that is the first introduction to the Federal Government, we 
might want to rethink how we reintroduce the opportunity, 
right?
    Ms. Cobert. We are committed to making improvements in 
USAJOBS. We have a process underway. We got extensive feedback 
in research last year on what people view as the needs that are 
not being fulfilled and we have a systematic process of working 
those through. We have done that already with some tools, like 
mapping, better search. You can now use it on a mobile device. 
But, we still have ways to go and a very explicit plan to start 
rolling those enhancements out kind of every couple of months 
over the coming year.
    Senator Heitkamp. We really want to see improvement sooner 
rather than later.
    Ms. Cobert. So do I.
    Senator Heitkamp. OK. Yesterday, we had a hearing on Indian 
health, and when the Native American tribes who came forward, 
one of their biggest complaints that I hear is that people who 
engage in bad behavior, incompetent behavior, never leave. They 
get moved around. They get detailed someplace else. But, they 
never suffer the consequences and it demoralizes the good 
workers, as Senator Ayotte said, and it continues and 
perpetuates the bad behavior. There has to be more 
accountability in order to kind of tell the people that we 
serve, which are the taxpayers, that we are being fiscally 
responsible.
    What can we do to improve the knowledge that supervisors 
have regarding the process for removal of bad employees? I used 
to get it all the time. Nobody in State Government ever got 
fired. I said, really? I fired a lot of people. I mean, if they 
did not do the job, we figured out how to do it. We had our 
rules and regulations on how you could do it. I think this idea 
that there is no path forward for termination of employees has 
frustrated and has perpetuated. How do we do a better job at 
educating supervisors on going through that process?
    Ms. Cobert. Senator, I concur that we need to make sure 
that people understand how to make the process work and that it 
can work. We are working on training for supervisors. At OPM, 
we work with agencies who make these decisions to make sure 
they understand the process to get them the resources they need 
to answer specific questions, and we are committed to continue 
to work with them to make sure they understand both how 
important this is and how to do it effectively, and we are 
going to work with them on that through training and other 
things.
    Senator Heitkamp. I just want to close with telling you how 
grateful I am that you are willing to take on this challenge, 
and I look so forward to working with you. You are just 
absolutely a breath of fresh air and we are excited about you 
having this position. Uncategorically, bravo.
    Ms. Cobert. Thank you.
    Senator Heitkamp. You are a great nominee.
    Ms. Cobert. Thank you.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thanks for being here. We have had 
multiple conversations in the past several months on multiple 
different issues that OPM is obviously involved in. I do 
appreciate you leaving the private sector and stepping into 
this. You probably think longingly of those almost 30 years in 
the private sector when you were not here on this Hill having 
to deal with these issues. But, thanks for stepping up and 
taking them on, and we do have great expectation that the 
people that step up and take these issues on take them on, 
because when you are talking about taking on a bureaucracy, you 
have seen well in the past year, we have major issues. So, let 
me just walk through a couple of them. A few of them have been 
dealt with a little bit already today.
    But, the relationship between OPM and the IG has not been 
good. Both in sharing documents and sharing information, 
historically, that has not worked well. There are issues where 
the IG comes forward and says, we have said for a long time 
there were IT problems, and now the IG trying to get 
information and get documents and working that process. How 
does that get better and when does that get better?
    Ms. Cobert. Thank you, Senator. Working with the IG is 
something I began the first day I arrived. As I said earlier, 
on my first day, I met with the IG and I have been meeting with 
him every other week since that time and I am committed to 
doing that going forward. The IG provides really valuable input 
onto the operations of our organization, and we are committed 
to have that dialogue at multiple levels within OPM.
    So, I have a meeting on a biweekly basis. We have a meeting 
with him on a monthly basis around IT as well as ongoing 
specific engagements. We have taken the issues that the IG has 
raised around our IT systems, around contracting, and are 
working those through very systematically. We want to 
understand really what is the issue he is concerned about, how 
can we address it. We do not always agree on every step of the 
solution, but we have to understand what the concerns are----
    Senator Lankford. Right.
    Ms. Cobert [continuing]. Get to the root cause, and----
    Senator Lankford. That would be the expectation. There are 
several layers of oversight here, obviously, IG being one of 
them. So, there is immediate interaction and oversight. This 
Committee would be another one.
    Can I have your commitment that when we have requests for 
documents or interaction or for you to be able to come to the 
Hill in the days ahead, that we could have that kind of 
interaction?
    Ms. Cobert. I am committed to working with this Committee 
going forward, if confirmed.
    Senator Lankford. OK. Let me flip over to the south side of 
the building. The relationship between Oversight and Government 
Reform and your office so far has not gone well on the House 
side. It is my understanding that Chairman Jason Chaffetz has 
subpoenaed documents to try to get them. Help us understand on 
the Senate side how that relationship is going to be good, but 
the relationship is really toxic on the House side right now 
and why documents have not been sent over. So, help us 
understand what is going on with the Oversight and Government 
Reform Committee on the House.
    Ms. Cobert. Senator, I know we received a letter from and 
the subpoena from Congressman Chaffetz and the Committee 
yesterday and I have not yet had the chance to go through it in 
depth. I can tell you that we have been working very actively 
to be responsive to their requests for information. We have had 
multiple hearings. We have had multiple briefings. We have 
produced responses to documents. In fact, OPM is a small 
agency. It took a real commitment of resources to deliver that. 
And, we are committed to work through those issues going 
forward.
    Senator Lankford. I just know that is typically a last 
resort to come back and say we are going to subpoena this. So, 
I am trying to figure out why they had to come back and say, we 
are not getting the documents at the speed or the type of 
documents that we are requesting, that it took a subpoena to 
say, let us help push this. Because, I mean, I would want us to 
have a very cooperative relationship. We both have the same 
job, to be able to serve the American people. It is no 
different.
    Ms. Cobert. We are committed to that kind of relationship. 
We are committed to that dialogue. We have been in discussions 
with them. We have produced hundreds, thousands of documents 
and briefings, as requested, and we are going to continue to be 
as cooperative as we can be.
    Senator Lankford. So, I do get that. Again, I do not want 
to be combative on this issue because that is their issue, what 
they are currently walking through right now. I do not know all 
the background details of what is going on. I do know multiple 
times that we have made Committee requests. We get the same 
response. We request a certain type of document or a certain 
type of information and we get thousands of documents that are 
unrelated to what we requested, or we get 10 documents and 
another thousand that were publicly available on a website. 
And, again, I am not saying that is what you presented, but the 
number of documents is not the key. It is the actual fulfilling 
of requests.
    So, I would hope when we talk about going through the 
process here on the nomination that we can have the commitment 
that when we make a request, we are trying to do our job, as 
well, and that is oversight, and we just want to be able to do 
our job. That involves our cooperation. So, if we walk through 
the nomination process, I want to know that when we make a 
request, you can come back and tell us, that is irrational. You 
are asking for too many things. Let us talk about it. But, when 
we make a request, it is probably going to be related to, we 
need to know to do some basic oversight. Can we have that 
commitment?
    Ms. Cobert. Senator, if confirmed, you have my commitment 
and we will continue to work with you. I know we have had some 
great dialogues from my staff and with the staff here about how 
to prioritize requests. As we were trying to sort of gear up 
and scale up to be able to be responsive, one of the sets of 
dialogues we have is what is most important to this Committee? 
How can we try and get you those things first? I think it is 
that kind of dialogue that can help all of us in this process. 
Oversight is an effective process. We want to work with you on 
it.
    Senator Lankford. I absolutely agree. Oversight is 
extremely important. We just need to know we have the 
cooperation, and before we move forward.
    Let me shift to several other things here. If I ever say in 
front of the State staff that--I have just a fantastic group of 
folks that serve Oklahomans in my State--if I ever say the 
letters OPM to them, it is a corporate groan, because they know 
it is going to take a long time. They are going to pick up the 
phone. They are going to talk to a Federal retiree that, once 
again, is not getting an answer. They are dealing with paper 
files and warehouses and it is disconnected and it takes 
forever.
    We have Federal employees shifting into retirement that 
take 3, 4, 5 months for things to start and initiate. It should 
not be that way. That did not happen in the company you served 
in for 30 years as people transitioned to retirement. It does 
not happen anywhere else. But, it seems to happen repetitively.
    What can you tell me is going to happen taking care of 
Federal retirees and their transition to make sure that is a 
smoother transition? What is going to transition between the 
paper process? How can people change their banking numbers once 
they change banks or change addresses? It is just chaotic for 
those millions of Federal retirees right now.
    Ms. Cobert. Thank you, Senator. We are committed to giving 
great service to Federal retirees and we know that we do not do 
that every day. We need to improve those service levels. We are 
working on them.
    There are a couple of things that we have underway that we 
are continuing to do. So, one, we have increased the ability of 
individuals to do things in a self-service mode digitally. Now, 
that will work for some current retirees. It may not work for 
all the existing retirees.
    Senator Lankford. Right.
    Ms. Cobert. We recognize that. But, we are doing that and 
we have seen a tremendous increase, over 25 percent growth per 
year in people doing self-service. They can now change 
addresses. They can now change the direct deposit for their 
bank. Those are new capabilities that we have put into place, 
and we are putting those into place and trying to do all we can 
to communicate that to our retirees. So, that is one thing.
    Second, we are looking at the process, and this is sort of 
my background. When you have a process that is not working as 
well as you want, where are the bottlenecks? So, we have some 
specific bottlenecks. We have some that are more simple cases 
coming through and some that are more complex. So, we have 
tried to think about how do we parse those out.
    We are working with agencies continually to make sure that 
the information we get from agencies is fully complete so we 
can move things through faster.
    We are moving forward in the next phase of automating the 
retirement systems. I know we have worked on that in the past 
OPM. We are going through it in a different way this time. It 
is much more modular. We are starting with a case management 
system, because we get some information digitally now and we 
want to be able to continue to use it digitally. That will help 
us get responses to people faster.
    We look at how people are calling in and we are finding 
ways to adjust staffing. So, we are continuing to try and look 
every day at what can we do to improve operations and get your 
constituents and Federal retirees the service that they expect 
and the service that they deserve.
    Senator Lankford. OK. Mr. Chairman, will there be a second 
round of questions? I would like----
    Chairman Johnson. I intend to have one, yes.
    Senator Lankford. I would like to stay for that second 
round to be able to extend some additional questions. Thank 
you.
    Chairman Johnson. Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Mr. Chairman.
    Ms. Cobert, you have a distinguished career at the Office 
of Management and Budget. You had the hardest job there, which 
is the ``M'' part that no one pays much attention to but is 
incredibly important. I imagine your McKinsey background is 
helpful to you, too. But, you are heading into a really 
difficult situation.
    Since coming on as Acting, you have experienced some of 
this. You have heard about some of the questions from my 
colleagues today that we have. I would like to dig a little 
deeper into one that obviously is a crisis right now, which is 
this personal information that has been compromised.
    To me, it is not just a matter, as important as it is, of 
personal data being taken by probably, as we understand it, 
Chinese hackers, but it is a national security issue, because 
so many people whose information was compromised defend our 
country every day. They are in the intelligence services. Some 
of them have, I am told, everything from Secret up to the 
highest level of clearances. Some of them conduct sensitive 
operations around the globe. And, I am very concerned about how 
we are handling it.
    I understand that you all have provided people some help in 
terms of their credit rating, much as you would if you had 
information compromised if you were one of the people involved 
in one of the retail store hacks. But, I am more concerned 
about how you deal with the national security side of it and I 
wonder if you could tell us today what you intend to do about 
that.
    Specifically, are there any plans to notify people if our 
intelligence service has determined that they are being 
individually targeted? How do we deal with people who might be 
blackmailed? How do we deal with the reality that this is not 
just personal data like a Social Security number, but it is 
biometric data, like a fingerprint, which cannot be changed, 
which creates problems well beyond what might happen to a 
customer at Target who loses a credit card number?
    So, can you respond to that and talk about what you are 
willing to do in a more aggressive way to deal with this really 
catastrophic breach, and I do not think we even know the degree 
to which it creates a national security danger, but we know it 
does.
    Ms. Cobert. Thank you, Senator. Since the time of the 
breach, we have been working at OPM very closely with the 
intelligence community to understand the implications and to 
support their effort to address the implications from a 
national security perspective. We have worked with them as they 
have developed additional training materials for individuals to 
raise their awareness of some of the threats that might exist.
    The NCSC, the part of the DNI that works on this, has put 
out materials to guide individuals to how to think about what 
these risks are and how to respond. They have also worked with 
agency security officials. Those are the individuals who work 
with the folks inside of agencies to help prepare individuals.
    So, in our role, we continue to work with the IC to 
understand what help they need from us. We continue to 
reinforce and put out the messages that they want to put out 
more broadly and support whatever efforts they have underway. 
It is an ongoing partnership with them, with law enforcement. 
It is an ongoing dialogue as we collectively try to respond.
    Senator Portman. Do you think we should be more aggressive 
in reaching out to people whose information has been 
compromised who might be in a position to be blackmailed?
    Ms. Cobert. We have been following the lead of the 
intelligence community and following their steps, and so we are 
doing whatever they believe is important for us to do to 
support those efforts.
    Senator Portman. With regard to the personally identifiable 
information (PII), we talked about, because you cannot replace 
biometric data, it is what it is, what are you looking at to 
protect people there?
    Ms. Cobert. Following the breach, an interagency team was 
put together with experts from the Federal Bureau of 
Investigations (FBI) and the rest of the national security and 
law enforcement community to understand specifically what are 
the implications of the issues around fingerprints and how best 
to respond. That effort is ongoing and I would be happy to come 
back to you with the details of what that is. But, we are in a 
continual dialogue with them.
    Senator Portman. I hope you are.
    You talk about hiring the best talent. You have an 
organization that has a tattered reputation, I would say, right 
now, and I imagine morale is not great, and I know there are 
some survey data that probably indicates that. What are you 
going to do to improve the morale and the reputation of the 
agency?
    Ms. Cobert. I am incredibly proud of the team at OPM and 
how the entire organization has actually pulled together in the 
face of the challenges coming out of the breaches. There is a 
whole part of the organization that is working on that, and at 
the same time, the rest of the organization has continued to 
deliver. They have taken things like the Federal Employee 
Viewpoint Survey, which is one of the things I will look to in 
this coming year to see how we are doing on our own morale, and 
gotten that information out to Federal agencies a month earlier 
with a much richer set of tools at unlocktalent.gov so people 
can use that to manage.
    The team has really pulled together. We are going to 
continue to work on rebuilding confidence inside of OPM and 
outside of OPM by making sure our systems are secure, by making 
sure that we continue the progress we have made in 
strengthening those systems and working with our interagency 
partners doing work around hiring. I think it is all about just 
doing the work every day, being disciplined, retaining our 
commitment on customer service, and moving forward.
    Senator Portman. Let us talk about hiring. One of your jobs 
is to handle those who want to work for the Federal Government 
and other agencies and departments through USAJOBS. I saw you 
talked about it in your testimony. I guess my sense is that 
there are still a lot of bad customer experiences there, that 
people who are trying to get a job in the Federal Government 
feel as though the system, this automated system, is 
complicated. It takes too much time to process applications. I 
am told that applications are tailored to meet your USAJOBS 
needs, including having to employ excessive repetition of key 
words that results in excessively long CVs having to be 
produced, and sometimes incomprehensible in both format and 
content.
    So, have you looked carefully--again, I saw some of your 
testimony. You say you are making some improvements. But, do 
you really feel as though the customer experience has been 
improved to the point where people do not see this as a bar to 
Federal employment?
    Ms. Cobert. Senator, I would say we are in the middle of 
the process of improving that customer experience. We have made 
some changes. We are not where we need to be. There was a large 
effort undertaken last year to look at the end-to-end process, 
both USAJOBS and its interactions with agencies who do actual 
hiring. How does that whole end-to-end process work from the 
perspective of the applicant and from the perspective of the 
hiring manager? They both have to come together.
    And, so, we have a series of enhancements that we will be 
rolling out over the course of this year with the fundamental 
goal of moving it from sort of a job bulletin that was 
automating a process to being a real resource to help people 
understand what are the opportunities in Federal employment, is 
that a fit for them, how can they access those positions, how 
can they move forward, and to help hiring managers use it. That 
is the journey we are on. We have a set of commitments about 
things we are going to deliver over the course of the coming 
year because we can make it better and we are on a path to make 
it better.
    Senator Portman. Thank you for your testimony today and we 
wish you good luck in these challenges.
    Ms. Cobert. Thank you, Senator.
    Chairman Johnson. Thank you, Senator Portman.
    I failed to follow script before our first line of 
questioning and that will give Senator Ernst a little chance to 
settle in here. So, let me ask these first three questions.
    Is there anything you are aware of in your background that 
might present a conflict of interest with the duties of the 
office to which you have been nominated?
    Ms. Cobert. No.
    Chairman Johnson. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Ms. Cobert. I do not.
    Chairman Johnson. Do you agree without reservation to 
comply with any request or summons to appear and testify before 
any duly constituted Committee of Congress if you are 
confirmed?
    Ms. Cobert. I do.
    Chairman Johnson. Senator Ernst.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you, Mr. Chairman and Ranking Member.
    Thank you, ma'am, very much for being here today.
    Ms. Cobert. You are welcome.
    Senator Ernst. My family and hundreds of my constituents 
were impacted by the OPM data breach, and I wrote you a letter 
last September when many of those impacted had yet to be 
notified. There was a very big gap in notification. And, I 
understand the importance of diligence on the process of 
responding to such a massive breach. And, I appreciated your 
timely response to my letter. Thank you for doing that.
    But, I just want to make sure that you continue to act with 
purpose and urgency as you address the implications of the data 
breach and work to ensure that something similar to this never 
happens again. Is that a commitment that you will make?
    Ms. Cobert. Senator, focusing on cybersecurity, protecting 
OPM's systems and data, and providing services to the 
individuals who were affected has been my highest priority 
since joining OPM. It will remain my highest priority if 
confirmed.
    Senator Ernst. Thank you so much.
    In one of your interviews here with the Committee, you were 
asked what you would work on and potentially accomplish giving 
the limited time you have at OPM before the end of the Obama 
Administration, so roughly a year left in that position. I 
understand that you brought up program management as an issue 
you would focus on this year. Can you elaborate on this and 
tell me what specific steps OPM is planning to take to address 
related issues with the Federal workforce and how the Program 
Management Improvement Accountability Act may complement some 
of OPM's efforts in this area?
    Ms. Cobert. Thank you, Senator. As I think about my 
priorities, one of the areas where we need to continue to 
improve performance, not just during the term of this 
Administration but, frankly, going forward, these are issues 
around effective management, effective skills and program 
management that should transcend administrations.
    We are continuing to work on that through things like our 
Hiring Excellence program, where you have a specific focus, for 
example, on IT professionals. We are continuing to work on 
efforts, including efforts with the support of the Office of 
Federal Procurement Policy (OFPP) and the Federal Chief 
Information Officer's Office, which I used to oversee in my old 
job, about making sure we are building those capabilities 
across the Administration and making sure that individuals have 
the skills they need to be able to take on the very large scope 
of responsibilities they have inside of government in managing 
programs.
    Senator Ernst. Very good.
    And, as you may know, the Program Management Improvement 
Accountability Act, which I introduced along with Senator 
Heitkamp, requires OMB to work with OPM to craft a specific job 
series for program and project managers across the Federal 
Government in light of the fact that failures in program 
management have plagued every department and every agency 
across the Federal Government. Do you believe that having 
specific job classifications for this career path will help to 
further develop that talent?
    Ms. Cobert. Senator, as I said, finding a way to build 
those program management skills is critical, and if confirmed, 
I am delighted to have my team at OPM work with the folks in 
OMB, you, and Senator Heitkamp to figure out how we can make 
the most progress on this issue.
    Senator Ernst. Very good.
    I know that Senator Tester has already raised the issue of 
the NBIB, but I would like to go into a bit more detail with 
that. Does the White House's announcement of the new National 
Background Investigations Bureau suggest a lack of confidence 
in OPM's abilities, and what exactly will OPM's role be in that 
particular process?
    Ms. Cobert. The process of developing and moving forward 
with the National Background Investigations Bureau was a true 
interagency process involving OPM, the intelligence community, 
the DNI, and Department of Defense. It was a collective effort 
to say, what do we need to do to secure the information and the 
IT systems and background information and make sure we 
modernize this function. It was a joint process and a 
recommendation supported by all of us who were involved in this 
decision.
    Senator Ernst. So, you were consulted in this decision?
    Ms. Cobert. Well, I was actively involved in the process.
    Senator Ernst. OK.
    Ms. Cobert. Yes.
    Senator Ernst. Very good.
    And, what are your plans to ensure a smooth transition, as 
I assume there are still thousands of background investigations 
that are currently ongoing?
    Ms. Cobert. The creation of the NBIB was put in place 
partly to make sure that we can move to a new model but do so 
in a way that minimizes disruption. The Federal Investigative 
Service (FIS) operations that exist within OPM will become part 
of NBIB and NBIB will remain housed within the Office of 
Personnel Management. It will work closely with DOD, who is 
going to be providing our core IT support going forward, and it 
will continue and engage with the Performance Accountability 
Council, which is the interagency group, to make sure that we 
have input from our customers and experts across government to 
modernize and improve our effectiveness.
    Senator Ernst. OK. Well, I thank you very much for being 
here this morning and I appreciate your willingness to step up 
into such a difficult position with many issues. I am very glad 
that you are willing to tackle that, so thank you very much.
    Ms. Cobert. Thank you, Senator.
    Senator Ernst. And, thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Ernst.
    I want to go back to the line of questioning that Senator 
Lankford started in terms of the subpoena from the Oversight 
Committee in the House. In Congress, one of our primary 
responsibilities is oversight, particularly this Committee. I 
often describe this Committee as two House Committees in one. 
We have Homeland Security on the one side and we have 
Governmental Affairs, which is the oversight committee of the 
Senate.
    And, the only way we can fulfill that responsibility, which 
we take very seriously, is to have a cooperative relationship, 
have the agencies provide us the information that is required. 
And, so, when I did read the story today that the House 
Oversight Committee has resorted to a subpoena, that is 
troubling and I want to drill down on that a little bit 
further.
    This Committee has issued one subpoena since I have been 
Chairman, and all I can say is for our own conduct, we worked 
tirelessly trying to get the Office of Inspector General of VA 
to comply with our subpoena, which they have still not done. 
Or, first of all, our request for information. We were forced 
after months of working with them to finally issue that 
subpoena. We did not want to do it. We were just forced to do 
it.
    So, in the intervening time period, I have found out a 
little bit more communicating with the House in terms of what 
the issue is. Do you know specifically what the issue is 
yourself, or are you really unaware of what----
    Ms. Cobert. Senator, I know the subpoena has been issued. I 
have had a chance to look at it. But, I have not had a chance 
to review it thoroughly yet.
    Chairman Johnson. OK.
    Ms. Cobert. It arrived last night.
    Chairman Johnson. Are you aware it involves the CyTech 
Company and their CyFIR program that was really being 
demonstrated in the system that really detected the breach. I 
mean, are you aware that that is what is at issue with the 
subpoena?
    Ms. Cobert. I do know that we have had an ongoing 
discussion with the House Oversight Committee around a range of 
documents related to the breach, including information about 
CyTech.
    Chairman Johnson. OK. It is my understanding that the 
difference here is you will allow an in camera review of the 
documents. The House Oversight Committee wants their own copies 
of those things. You are aware of that?
    Ms. Cobert. I know we provided some documents in camera in 
our offices in their building. We have been doing that in some 
cases because we are very concerned, given the past experience 
at OPM, about security issues related to our systems and we are 
very cautious about our documents and how we handle them 
internally and everywhere else.
    Chairman Johnson. I think the issue was the former Director 
of OPM, Director Katherine Archuleta, testified before the 
House Oversight Committee that it was the OPM's new technology 
that discovered the breach when it sounds like, in fact, it was 
really this demonstration project that determined it, and I 
think that is probably the heart of what the House Oversight 
Committee is trying to get to. How was this actually detected?
    Ms. Cobert. And we have been working with them to get them 
the information to resolve that question.
    Chairman Johnson. OK. Well, we are going to want to know 
more about that, because, again, it is troubling that the House 
Oversight Committee was forced to resort to a subpoena, which, 
from my standpoint, that is something I am going to do as a 
very last resort.
    I do want to bring up the issue, as well, talking about 
trying to get information. The letter from February 2, which I 
will enter into the record here, from Senator David Vitter,\1\ 
again requesting information he requested really a couple years 
ago under the OPM's decision to grant special treatment to 
Members of Congress and their staff under Obamacare.
---------------------------------------------------------------------------
    \1\ The letter from Senator Vitter appears in the Appendix on page 
123.
---------------------------------------------------------------------------
    You have received that letter now, correct?
    Ms. Cobert. I have received the letter.
    Chairman Johnson. Are you also aware, because of Senator 
Vitter's--the lack of response from OPM, that one nomination 
has already been held up and finally withdrawn because OPM was 
not responsive to his request?
    Ms. Cobert. I understand there were some issues around 
that. I have not spent time understanding the specifics.
    Chairman Johnson. This will be a serious issue. And, quite 
honestly, it is an issue that I am somewhat sympathetic with, 
seeing as I tried to sue the Administration to overturn that 
special treatment. I never could get standing in front of a 
court of law to have my case heard. But, this is something that 
the American people really get upset about, when Members of 
Congress exempt themselves from the very same law that they 
impose on the rest of the American public.
    So, again, as head of OPM, I will just ask, because the 
reason Congress has been able to circumvent this, or OPM was 
able to circumvent this and get the special treatment is 
Members of Congress now can buy their insurance through a Small 
Business Health Options Program (SHOP) exchange, which is only 
available to employers less than, is it 50 or 45? It is 50. 
According to Senator Vitter's letter, there are 16,000 
employees of Congress. Can you describe to me, as head of OPM, 
what kind of mental gymnastics was required of OPM to basically 
define Congress as a small employer eligible for SHOP 
treatment, able to purchase their insurance through SHOP 
exchange? I mean, what kind of mental gymnastics would be 
required there?
    Ms. Cobert. Senator, those were issues that were considered 
by OPM multiple years before I was there. I have not had the 
chance to look at them. I know they were also looked at, I 
believe, last year by the Small Business Committee here in the 
Senate. But, I do not have the details of the specifics, so I 
would rather get back to you when I have more of a chance to 
review this.
    Chairman Johnson. So, that would be what I am going to ask, 
is I want to understand that. And, from my understanding, 
Senator Vitter has received zero response to his request for 
this information the first time around, and there is another 
request here, and because of that lack of response, one 
nomination has already been withdrawn.
    Again, I think you are a first class individual. I think we 
are, again, we are very glad that you are willing to serve your 
Nation and I want to make sure that this nomination can move 
forward. So, this is a serious issue that needs to be 
addressed.
    Ms. Cobert. Thank you, Senator. We will take it seriously.
    Chairman Johnson. Thank you, Ms. Cobert. Senator Carper.
    Senator Carper. Let me just followup on the issue that has 
been raised here. Most--before I was elected to this job here, 
I was Governor of my State. Before that, I was in Congress for 
a while. Before that, I was State Treasurer. As State 
Treasurer, we actually--one of my responsibilities in the State 
Treasurer's office was to administer fringe benefits for State 
employees--health care, pension, you know, all kinds of stuff.
    The State of Delaware provided an employer contribution. 
The employees had to pay something, as well. It was something 
like 70 percent/30 percent--70 percent by the State, 30 percent 
for the employees. As it turned out, a lot of employers have a 
similar kind of arrangement. And, actually, the State of 
Delaware was, like, more generous for the employees than that, 
even.
    But here, we have had a tradition for, like most large 
employers, where health care coverage is offered as a condition 
of employment. The employer pays toward the premium and so does 
the employee. It differs from employer to employer, but maybe 
three-to-one employer-to-employee.
    The question is, for me, the basic question here behind all 
this is, should folks who work in the legislative branch of our 
Federal Government be treated like other Federal employees are, 
and most other Federal employees have health care coverage. The 
Federal Government pays roughly three-quarters of it. The 
employee pays about a quarter. And, the question is, should the 
employees of the legislative branch be treated the same?
    I think we should. I do not know of anybody who is asking 
for a special deal. We are not asking for, like, 100 percent 
coverage paid for Legislative employees as opposed to the rest. 
We just basically want to be treated the same.
    So, I have talked with Senator Vitter about this issue a 
couple of times and I think part of our job and where we as 
leaders is to lead by example. And, we are not asking for a 
special deal. Frankly, in this case, we are asking to be--for 
our employees to be treated the same as most other Federal 
employees in this regard.
    So, I did not want to belabor this point, and I could talk 
about it some more later on, but that is just a perspective I 
would share.
    The other thing I want to say, I know of no one in the 
Senate who is a more thoughtful member than Senator Lankford, 
and he has raised a concern about OPM's being responsive to the 
House Oversight Committee. They have got a good leadership team 
there in Jason Chaffetz and Elijah Cummings. And, my staff just 
gave me a sheet of paper and I am just going to--it is not too 
long. I am just going to read it. I think it is responsive to 
what Senator Lankford has raised.
    But, I am told by my staff that since June 2015, OPM has, 
first, received and provided responses to every question in six 
separate document production requests resulting in 19 separate 
document productions, including tens of thousands of documents 
and internal reports. Second, testified at four public 
congressional hearings. Third, made hundreds of calls to 
members and congressional staffers relating to the 
cybersecurity incidents. Four, received over 170 letters from 
Members of Congress relating to the cybersecurity incidents. 
Five, made senior officials available for interviews. Six, 
conducted 13 classified and unclassified briefings. And, seven, 
expended thousands of staff hours in an effort to be 
responsive.
    You may have already done this, and if you have, that is 
good, but if you have not, do this. I would urge you to try to 
meet at the same time with Congressman Chaffetz, the Chairman, 
and the Ranking Member, Elijah Cummings. Just ask for a private 
meeting with them, and principal to principal will be talking. 
And, actually, you may better understand what their wants and 
needs are and they may have a better understanding of what you 
already produced. And, I would urge you to do that.
    And, if we can be helpful--we know these guys, think well 
of them--if we can be helpful, we would like to play--not to 
run interference for you, but actually to be productive.
    The other thing I want to ask is morale of Federal 
employees, including your own employees. My colleagues have 
heard me tell the story about an actual survey conducted to 
figure out what it is about people that they like about their 
jobs. What is it they like? Some people like getting paid. Some 
people like having benefits, pensions, vacation, health care. 
Some people like the folks they work with. Some people like the 
environment in which they work. Most people, the thing they 
liked about their work was the fact that they felt like what 
they were doing was important and they were making progress. 
That was it. What they were doing was important and they were 
making progress.
    And, too many cases, Federal employees know what they are 
doing is important, it is really important, but too often, they 
are not making progress. We are not making progress. And 
sometimes, we are the impediment. And, one of the reasons why 
it is hard to attract and retain Federal employees is because 
of the way we denigrate them. Honest to God, we do not treat 
them the way we would want to be treated in too many instances. 
Some of my colleagues, I think, treat Federal employees 
shamefully, and I do not feel good about that and I have talked 
to them about it, as well.
    The other thing, there are things that when we--budget 
shutdowns, government shutdowns, threats of government 
shutdowns, are we going to have a budget, are people going to 
be put on alert they are not going to have a job next week, 
stuff like this, and for us to call them faceless bureaucrats 
and that kind of thing, what do you expect?
    So, we have a responsibility. This is a shared 
responsibility. God knows, you have a big responsibility, but 
frankly, so do we.
    The last thing, I promised I was going to ask you something 
about health care, the Federal Employee Health Benefit Plan. It 
is an opportunity for us to, as we all like to say around here, 
find ways to get better results for less money. Are you all 
doing anything innovative and creative with FEHBP that might 
take us in that direction?
    Ms. Cobert. Sure. There are a number of things that the 
team leading the FEHBP effort is continuing to do to make sure 
that we are getting great quality, great value for Federal 
employees. There are a number of innovative things they have 
done in the past year about putting in metrics for insurers 
that focus explicitly on quality. There are efforts underway to 
make sure we are continuing to manage effectively pharmacy 
benefits, a very important part of the costs and very important 
part of people's health care. They are exploring new 
alternatives around wellness programs. They have done some very 
innovative things. The quality metrics, in particular, whether 
it is using metrics like readmission rates to look at insurers 
and providers.
    So, there is a whole effort underway. They are in active 
dialogue with the health insurance industry, with others, to 
see how we can learn, how we can make sure that employees have 
great choice, great options that are a quality and good value 
for the taxpayers' dollars.
    Senator Carper. Thanks so much.
    Ms. Cobert. You are welcome.
    Chairman Johnson. I need to correct the record, because the 
issue at stake here and raised by Senator Vitter is not whether 
or not Members of Congress and their staff are going to be 
treated the same as every other Federal employee. It is whether 
or not they are going to be required to follow the law and be 
treated like every other American.
    Under the Affordable Care Act, and Senator Vitter states it 
in his letter, it specifically was called out in the law that 
Members of Congress and their staff had to purchase insurance 
in a plan, either one created under this Act or offered through 
an exchange established under this Act. So, Congress explicitly 
said that Members of Congress and their staff could not be 
treated like other Federal employees, who could continue to get 
their insurance as they always did.
    Now, because of that, millions of Americans lost their 
health care under Obamacare and were forced to purchase on the 
exchange. They do not get an employer contribution into the 
exchange. They get a subsidy if they are qualified based on 
income.
    And, so, Senator Grassley recognized that fact, that 
because Members of Congress and their staff were now going to 
be forced to purchase a plan either created by the Act or under 
an exchange created by the Act, they were not going to be 
allowed to obtain the employer contribution. And, so, Senator 
Grassley on March 24, 2010, offered an amendment that would 
have allowed that employer contribution to be paid into those 
plans that now Members of Congress and their staff would have 
to purchase through the exchange. That amendment was explicitly 
defeated. My guess, Senator Carper, is you voted against that.
    So, the issue at stake was should we follow the law? Should 
Members of Congress and their staff get special treatment? I 
think they should not. I think we should be forced to follow 
the law, and it was OPM, under pressure from Members of 
Congress and the Administration, that circumvented the very 
clear language of the law.
    And that is what is at stake in terms of getting the 
information, in terms of how that all came about. What kind of, 
again, mental gymnastics were utilized to literally circumvent 
a very clearly written law? I am no lawyer. It is very clear to 
me what Congress's intent was, and yet Congress's intent has 
not been carried out.
    So, this has nothing to do with Members of Congress and 
their staff being treated equally as other Federal employees. 
This has everything to do with Members of Congress and their 
staff being treated like every other American who lost their 
health care because of Obamacare, and they do not get an 
employer contribution. Just Members of Congress and their staff 
do. That is unfair. That is special treatment. And that is the 
issue, and that is the information I want to get out of OPM. 
That is what Senator Vitter wants to get out of OPM, as well. 
Senator Lankford.
    Senator Carper. Before you respond, could I have a couple 
of minutes?
    Chairman Johnson. Sure.
    Senator Carper. I am not interested in a debate here. What 
I am interested----
    Chairman Johnson. Well, you did start it.
    Senator Carper. No, actually, I think you did. And, the 
Chairman and I agree on a lot of things and there are some 
things we disagree on.
    What we have is that I would describe it as sort of a Rube 
Goldberg set-up here to make sure that legislative employees, 
employees of the legislative branch, can actually get the 
employer's share, as other Federal employees do. Is it a 
perfect situation? No, it is not. And among the folks that are 
complicit in creating this, what I would describe as a Rube 
Goldberg process to make sure that legislative branch employees 
do receive an employer share it involves folks on the 
Republican side and on the Democratic side. They said, for 
God's sake, let us figure out some way so that our employees 
can get their employer's share.
    At some point in time, my hope is that we will get to a 
point where we could actually go in and have a reasonable 
debate on the Affordable Care Act and make changes to it. It is 
not perfect. There are some things we ought to change, and 
maybe this is one of them we can straighten out.
    The one thing I would state for sure, the Chairman talks 
about the millions of people who have lost their health care 
coverage because of the Affordable Care Act, I would just note 
for the record that 5, 6 years ago, we had about 40 million 
people in this country who did not have any health care 
coverage, and today, that number has been cut in half. So, that 
is some progress. There are other things we need to do, and let 
us just see if we cannot find some common ground.
    Chairman Johnson. But, again, Senator Carper, it did not 
need to be a Rube Goldberg approach. The Senate could have 
voted for the Grassley Amendment 3564 that would have allowed 
that employer contribution. That amendment was defeated 
explicitly. That is the intent of Congress and we did not carry 
it out. OPM has circumvented that law and granted the special 
treatment to Members of Congress and their staff. Senator 
Lankford.
    Senator Lankford. Let me finish up this conversation about 
the retirees. Give me a feeling at this point, if a retiree 
finishes out from any agency, they finish their retirement, how 
long should it be? What is a reasonable period of time before 
they are in the system, they are getting all their benefits, 
everything is smooth on that? Tell me, what is the target goal 
time?
    Ms. Cobert. So, as someone enters the retiree system, 
right, the first step is to make sure they are getting what is 
called interim pay, right----
    Senator Lankford. Right.
    Ms. Cobert [continuing]. Making sure that they are getting 
pay quickly. We then have a set of guidelines and goals for 
ourselves, and 90 percent being processed quickly. That is what 
we are trying to do----
    Senator Lankford. I am sorry. Help me--what is the date on 
that?
    Ms. Cobert. The specifics, and I want to make sure I get it 
right, but there is a set about how much we can do in the short 
term, 90 percent of the claims, I believe, and I will get back 
to you with the specifics----
    Senator Lankford. Ninety days or 90 percent?
    Ms. Cobert. No, 90 percent.
    Senator Lankford. OK. Ninety percent to achieve what time 
period?
    Ms. Cobert. I believe it is 60--30 days? Sixty? I do not 
know the specifics. I am sorry, Senator.
    Senator Lankford. OK. Help us get that information----
    Ms. Cobert. I will get you----
    Senator Lankford [continuing]. Because that is important to 
get. That is telling for all the caseworkers around the country 
that are answering calls all the time from retirees saying, why 
did this take so long? I used to work with a Federal agency. I 
know how things work. I got all my stuff in, and then now I 
cannot start retirement. Or, they are very vulnerable because 
they are not getting interim pay, they are not getting 
benefits, and they have suddenly got this 2-month gap, 3-month 
gap. That is a big deal for someone in their early 60s or in 
their mid-60s retiring and suddenly there is a big gap.
    Ms. Cobert. Senator, it is very important, and in fact, we 
do provide reporting publicly on a monthly basis and to 
Congress about how we are doing, how we are doing in meeting 
those guidelines.
    Senator Lankford. No, I am asking, what is the target? What 
are you trying to get to? I mean, we can definitely pull how we 
are doing. It is the, what is your target goal to get to.
    Ms. Cobert. One second.
    Senator Lankford. OK. One second is pretty quick. That 
would be good. [Laughter.]
    Ms. Cobert. It is 90 percent within 60 days.
    Senator Lankford. OK.
    Ms. Cobert. And we report on the share that we achieve 
against that, and we now also report on how long it takes. So, 
if the target is 60 days, are we getting it at 37? Are we 
getting it at 45? Are we getting it at 55? For the cases that 
take longer than 60 days, we have also added reporting this 
year because we want to make sure we are tracking those cases, 
too. So, for cases that take longer than 60 days, we now 
provide explicit reporting on how many days those take. We 
provide that reporting on a monthly basis.
    Senator Lankford. Is there a commonality between those that 
take longer? Is this a problem in the agency not getting their 
paperwork in, or they are doing incorrect stuff? Is there 
something we can fix to reduce that amount of time for that 
other 10 percent, as well?
    Ms. Cobert. So, the issue that you tee up about what is the 
source of that is something that we are systematically working 
our way through. In some cases, it is things that come in from 
agencies. In some cases, in making those determinations, we 
need external parties. Sometimes it is issues with court-
ordered benefits. Sometimes it is issues in getting information 
back from individuals, and we then have to do a better job of 
tracking them down. So, we are working our way through those, 
because in my experience, if you think about the standard 
cases, the 90 percent we want to get done in 60 days, we should 
make that process move smoothly, quickly as possible.
    And then there are cases that are more complicated and the 
solutions to get those resolved, to get the retirees the 
certainty they need, there is probably a different set of 
solutions. That is why we have added this additional tracking 
for sort of the more straightforward and the more complex.
    Senator Lankford. So, is the IG cooperating with you to 
help determine any sort of consistency, like there are certain 
agencies, there are certain places that we tend to have 
problems with that tend to take longer, so you can begin to get 
the basic algorithm of it that every company does to say, we 
have a set of problems. Do we know where those problems are 
coming from?
    Ms. Cobert. We have done that, and we work explicitly with 
agencies. The Department of Defense is obviously one of the 
largest agencies that we work with and we have a particular 
program with them to work those through, as well as with the 
Postal Service. In fact, one of the things we have done this 
year, and last year we started but we expanded, is to bring 
individuals from those agencies who work on preparing claims to 
come help provide some basic support during January and 
February when we get lots of the claims in.
    Senator Lankford. Right.
    Ms. Cobert. That both gives us capacity, but even more 
importantly, those individuals then go back to their agencies 
and they understand much better, because they have done the 
work, what does it take to get something processed. What are 
the mistakes that they see? And they can then work with their 
colleagues to improve what is coming in.
    Senator Lankford. OK.
    Ms. Cobert. It has been a very effective program. We are 
working on that now.
    Senator Lankford. OK. Let me keep shifting----
    Ms. Cobert. Sure.
    Senator Lankford [continuing]. Because I know we are 
running out of time. Votes have also been called, I understand, 
as well. So, let me hustle through a couple things with you, as 
well.
    This National Background Investigations Bureau, I have to 
tell you, when I first saw the announcement come out, I believe 
it was last week or the week before when it was announced, this 
launch of this new entity, my first thought was, this feels 
like typical Federal Government. We are having a problem in one 
entity, so we launch another one instead of fixing the first 
one, if that makes sense.
    So, what I am trying to determine is, is this a push to 
stop using contractors in some of this area, to pull in more 
Federal employees to be able to do this? What is the difference 
between fixing what is existing or spinning up something new 
here? What do we gain by that? What is the manpower change? 
What is the processing change?
    Ms. Cobert. Sure. The goal in this process is to improve 
how we do investigations. A core element of that----
    Senator Lankford. But, why does it take a new entity to do 
that?
    Ms. Cobert. What we are doing is taking the resources and 
moving them to the new entity, but operating it differently. 
So, the IT support will be different. We will be leveraging the 
expertise of DOD, particularly around security and their 
ability to provide resources that do not exist inside of OPM at 
scale.
    Senator Lankford. OK.
    Ms. Cobert. We want to tap into those.
    We also have structured this in a way that continues the 
interagency involvement that is a part of background 
investigations. The leader of the NBIB will become a member of 
the PAC, working together with the Security Executive Agents 
and others to drive operations. We are going to make sure that 
this bureau has more dedicated support than exists today around 
the specialized skills that it needs, whether it is in privacy 
or contracting. There will still be contracts.
    And, we are going to manage this transition that we 
committed to following the Navy Yard tragedy to continuous 
evaluation in a new model.
    Senator Lankford. More Federal employees or remaining 
contract employees because that has been a lot of contract 
groups on it, which I am not opposed to on that, but do you see 
a shift to more Federal employees or continue to use 
contractors?
    Ms. Cobert. We are going to continue to have a balance 
between the two, because some of the way this work actually 
plays out in the field, the most effective way to do it is to 
have contractors, because demand is variable. So, we will work 
through and manage that balance.
    Senator Lankford. OK. Let me ask one other question here, 
and this gets in the weeds and we will followup on this in the 
days ahead.
    Ms. Cobert. Sure.
    Senator Lankford. I have had some questions from some of 
the great folks from the Federal Aviation Authority (FAA) in 
air traffic control. In 2003, a law was passed that, granted, 
is fuzzy in some ways, but since 2003, the law has been dealt 
with on enhanced annuity rates, trying to encourage people that 
were front-line air traffic controllers to stay after their 
mandatory retirement and move to management, because we 
desperately need people in management that understand what is 
happening at that board. So, since 2003, we have given an 
additional annuity to those folks to help them make that 
transition to stay in management.
    In 2015, without a change in law, OPM just changed that 
policy and now there is a disincentive for air traffic 
controllers to stay on, which makes it much more difficult, and 
now you are looking to bring in people that were not 
necessarily at that board to come manage people that were at 
that board, or it discourages people from staying on and going 
into management because, actually, their pension goes down if 
they go into management. It is this really odd perverse 
incentive and I am trying to figure out how OPM shifted the 
rules that had been in place and worked since 2003 when there 
was no change in statute. Do you know the background on that?
    Ms. Cobert. Thank you, Senator, and your staff did tell us 
this was an issue of concern and we are continuing to work it. 
There was not a change in OPM regulations in 2015. The guidance 
that was issued after the law was written has remained in 
place. We are working with the FAA to make sure that there is 
consistent interpretation of that guidance and how that has 
played out, and so we are working with them to get to the 
bottom of this issue and we are happy to keep you informed as 
we work it.
    Senator Lankford. Something definitely changed there. FAA 
is saying it is OPM. OPM is saying we are trying to figure it 
out. We have to figure out what just happened, because we do 
not want to have a gap in leadership moving into air traffic 
control for all of our public safety on that. We want to have 
good folks that stay there, and if we create a disincentive to 
go into management, then people will just say, I am going to 
retire and do something else in the private sector when we have 
some very qualified folks.
    Ms. Cobert. Senator, we will continue to work the issue 
with the FAA and we will continue to stay in close touch so we 
can apprise you of our progress.
    Senator Lankford. Please do. Thank you.
    And, I appreciate the Chairman's indulgence.
    Chairman Johnson. Thanks, Senator.
    We do have a vote that is ongoing right now, so let us 
close out the hearing.
    Again, everybody on this Committee appreciates your 
willingness to serve. We all think you are great. We want to 
see this nomination move forward.
    Let me just adjourn the hearing by saying the nominee has 
filed responses to biographical and financial questionnaires, 
answered prehearing questions submitted by the Committee, and 
had her financial statements reviewed by the Office of 
Government Ethics. Without objection, this information will be 
made part of the hearing record, with the exception of the 
financial data, which is on file and available for public 
inspection in the Committee offices.
    The hearing record will remain open until noon tomorrow, 
February 5, 2016, for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Whereupon, at 11:48 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
